              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Severance Repayments at the
Savannah River Site




INS-O-10-02                                        July 2010
                              Department of Energy
                                Washington, DC 20585
                                      July 29, 2010



MEMORANDUM FOR THE ASSISTANT SECRETARY FOR
               ENVIRONMENTAL MANAGEMENT


FROM:                    Sandra D. Bruce
                         Assistant Inspector General for Inspections and Special Inquiries
SUBJECT:                INFORMATION: Inspection Report on "Severance Repayment at the
                        Savannah River Site”

BACKGROUND

The Department of Energy’s (Department) mission has evolved in recent years, which
necessitated changes in the contractor workforce requirements. In 1993, Congress
approved Section 3161 of the National Defense Authorization Act (Act), which mandates
that if a change in the workforce is necessary, the Department must develop a plan for
workforce restructuring that will minimize the impact on the affected employees and the
surrounding communities. Since the passage of the Act, the Department has managed
numerous contractor workforce restructurings that resulted in a reduction in the
Department’s contractor workforce. For example, workforce restructuring efforts in
Fiscal Years 2005, 2007 and 2009 at the Savannah River Site (Site) reduced the
contractor workforce by 1,184 employees.

The Office of Inspector General (OIG) received a hotline allegation that employees of the
Washington Savannah River Company (WSRC), a former management and operating
contractor, had inappropriately received severance payments under the 2007 Savannah
River workforce restructuring. It was alleged that these employees were subsequently
rehired to perform in the same or similar functional job areas but were not required to
repay severance money. The contractual agreement between the Department and WSRC
prohibited employees from receiving severance pay if they were offered employment at
the Site, performing the same or substantially the same type of work with comparable pay
and benefits, by any WSRC contractor or subcontractor. At the same time, the OIG’s
Office of Investigations was in the process of reviewing a similar allegation received
from Savannah River Operations Office (SRO) officials. The OIG’s Office of
Inspections initiated an inspection to consolidate the information and review the facts and
circumstances regarding both allegations. Our efforts focused on the Fiscal Year 2007
workforce restructuring which cost $9.7 million and resulted in the reduction of 312
contractor employees.
RESULTS OF INSPECTION

We found that 37 former WSRC employees who participated in the 2007 workforce
restructuring inappropriately received about $1.1 million in severance payments. We
believe that these costs, which were reimbursed by the Department, were unallowable
and that they should be recovered by the Department. Specifically, we found that
contrary to the WSRC contract with the Department, 21 former WSRC employees who
participated in the 2007 workforce restructuring were subsequently rehired and not
required to repay approximately $300,000 in severance payments. These employees
were rehired to perform the same or substantially the same job functions in various
positions including WSRC consultants, WSRC staff augmentation positions, or as WSRC
subcontractors. They were also rehired within a timeframe that would have required
them to repay $300,000 of the severance money. However, none of the former
employees were required to return any portion of the $300,000 in severance payments.

We further determined that an additional 16 WSRC employees who participated in the
2007 workforce restructuring received $780,000 in severance payments. The employees
were allowed to participate in the program despite the Site’s established need for
retaining employees in critical positions -- science, engineering and information
technology fields.

To address these matters, we made two recommendations to the Acting Manager,
Savannah River Operations Office.

MANAGEMENT REACTION

In comments on a draft of this report, SRO officials concurred with the report
recommendations and identified corrective actions that will be taken to address our
recommendations. Management’s comments are included in their entirety at
Appendix C.

Attachment

cc:    Deputy Secretary
       Under Secretary of Energy
       Chief of Staff
       Acting Manager, Savannah River Operations Office
       Director, Office of Risk Management, CF-80
       Team Leader, Office of Risk Management, CF-80
       Audit Resolution Specialist, Office of Risk Management, CF-80
REPORT ON SEVERANCE REPAYMENTS AT THE SAVANNAH RIVER
SITE

TABLE OF
CONTENTS

                OVERVIEW

                Introduction and Objective                 1

                Summary                                    2


                DETAILS OF FINDINGS

                Former Employees Did Not Repay Severance
                Payments                                   3

                Restricted Employees Paid Severance        5


                RECOMMENDATIONS                            6


                MANAGEMENT AND INSPECTOR COMMENTS          7


                APPENDICES

                A. Scope and Methodology                   8

                B. Prior Reports                           9

                C. Management Comments                     10
Overview

INTRODUCTION    The Department of Energy’s (Department) Savannah River Site
AND OBJECTIVE   (Site), located in Aiken, South Carolina, is dedicated to
                environmental management and cleanup; nuclear weapons
                stockpile stewardship; and, nuclear materials disposition in support
                of the U.S. nuclear non-proliferation efforts. The current
                management and operating contractor for the Site is Savannah
                River Nuclear Solutions, LLC. One of the former management
                and operating contractors was Washington Savannah River
                Company, LLC (WSRC).

                With the end of the Cold War, the Department shifted its efforts
                from weapons programs to other areas, which necessitated a
                change in the contractor workforce requirements. In 1993,
                Congress approved Section 3161 of the National Defense
                Authorization Act (Act), which mandates that if a change in the
                workforce is necessary, the Department must develop a plan for
                workforce restructuring that will minimize the impact on the
                affected employees and the surrounding communities. Since the
                passage of the Act, the Department has managed numerous
                contractor workforce restructurings throughout its nuclear weapons
                production facilities. For example, three recent workforce
                restructurings occurred at the Site in Fiscal Years 2005, 2007 and
                2009. The workforce restructurings at the Site cost the Department
                $35 million in severance pay and reduced the contractor workforce
                by 1,184 employees. Specifically, the 2007 workforce
                restructuring at the Site cost $9.7 million and resulted in the
                reduction of 312 contractor employees. WSRC was the Site’s
                management and operating contractor at the time.

                The contractual agreement between the Department and WSRC
                prohibited WSRC employees who were offered employment at
                comparable pay and benefits by any contractor or subcontractor
                performing the same or substantially the same type of work from
                receiving severance pay. The contract further stipulates that
                former WSRC employees, who had received severance pay and
                were subsequently rehired within a specified interval, were
                required to repay an appropriate portion of the severance payment.

                The Office of Inspector General (OIG) received a hotline
                allegation that former WSRC employees had inappropriately
                received severance payments under the 2007 Savannah River
                workforce restructuring. It was alleged that these employees were
                subsequently rehired to perform in the same or similar functional
                job areas but were not required to repay appropriate severance
                money. At the time the hotline allegation was received, the OIG’s
                Office of Investigations was in the process of reviewing a similar

____________________________________________________
Page 1                                               Introduction and Objective
Overview

                allegation received from Savannah River Operations Office (SRO)
                officials. The OIG’s Office of Inspections initiated an inspection
                to consolidate the information and review the facts and
                circumstances regarding both allegations.

                The OIG has previously conducted several reviews that identified
                concerns with contractor workforce restructuring programs and
                severance payments at the Idaho National Laboratory and
                Department-wide. The related prior reports are identified in
                Appendix B.

SUMMARY         We found that 37 former WSRC employees who participated in the
                2007 workforce restructuring inappropriately received
                approximately $1.1 million in severance payments. We believe
                that these costs, which were reimbursed by the Department, may
                be unallowable and should be recovered by the Department.
                Specifically, we found that:

                       Contrary to the WSRC contract with the Department,
                       21 former WSRC employees who participated in the 2007
                       workforce restructuring were subsequently rehired and not
                       required to repay approximately $300,000 in severance
                       payments. These employees were rehired to perform the
                       same or substantially the same job functions including
                       WSRC consultants, staff augmentation under WSRC
                       contracts, or WSRC subcontractors. The employees were
                       also rehired within a timeframe that required them to repay
                       $300,000 of the severance money. However, none of the
                       former employees were required to return any portion of
                       the severance money. The $300,000 estimate was based on
                       a formula which relied upon the relationship between the
                       duration of severance pay and the actual separation time.
                       For example, if an employee received 26 weeks of
                       severance pay and was rehired after being separated for 20
                       weeks, the contract required that the employee return the
                       equivalent of 6 weeks in severance pay.

                       An additional 16 employees who participated in the 2007
                       workforce restructuring received $780,000 in severance
                       payments. These employees were allowed to participate in
                       the program despite the Site’s established need for retaining
                       employees in critical positions.

                In response to these findings, SRO officials indicated that they
                anticipate conducting a full review of this matter to include making
                a determination on the $1.1 million in questioned costs.

____________________________________________________
Page 2                                               Introduction and Objective
Details of Findings

FORMER                We found that 21 former WSRC employees who participated in the
EMPLOYEES             2007 workforce restructuring were subsequently rehired, but they
DID NOT REPAY         were not required to repay approximately $300,000 in severance
SEVERANCE             payments. These employees were rehired to perform the same or
PAYMENTS              substantially the same job functions, including WSRC consultants,
                      staff augmentation under WSRC contracts, or WSRC
                      subcontractors. As such, these employees were rehired within a
                      timeframe that would have required them to repay $300,000 in
                      severance payments.

                      We identified the 21 individuals by accessing the badge office
                      database to determine the number of 2007 workforce restructuring
                      participants who were re-issued Site access badges. Since we
                      limited our review to those rehires who were issued Site access
                      badges, our review does not include those individuals, if any, who
                      returned as consultants, in staff augmentation positions or as
                      subcontractors in off-site locations.

                      The Department’s management and operating contract with WSRC
                      prohibited employees who transferred to another facility,
                      subsidiary or affiliate of the contractor from receiving severance
                      payment. The contract further prohibited employees from
                      receiving severance payment who were offered employment at
                      comparable pay and benefits by any contractor or subcontractor
                      performing the same or substantially the same statement of work
                      contained in the contract. Moreover, the contract required former
                      Site contractor employees who had received federally-funded
                      severance pay and were subsequently rehired within a specified
                      interval to repay an appropriate portion of the severance. Contrary
                      to the contract, our review revealed that the 21 former employees
                      performing the same or similar type work as they previously
                      performed for WSRC prior to the workforce restructuring returned
                      to the Site.

                      Our review of the “Savannah River Site Workforce Management
                      Strategy FY 2007 Plan” (2007 Plan) determined that the Plan was
                      inconsistent with the contract. Specifically, the Plan did not
                      include any provisions on the repayment of severance pay if a
                      former employee returned in a consultant, augmentation or
                      subcontractor position other than under a parent company or an
                      affiliate nor did it address comparable pay and benefits. Further,
                      the 2007 Plan’s section on “Questions & Answers (Q&A)”
                      indicated that the severance pay would only be impacted if the
                      employee were to accept a job with WSRC’s parent company or an
                      affiliate. The Q&A listed the following five parent companies --
                      Washington Group International, Bechtel, BNG America, BWXT,

____________________________________________________
Page 3                                                              Details of Findings
                or CH2MHILL -- but did not identify the affiliates. In addition,
                the 2007 Plan did not address the repayment of severance pay for
                employees rehired under other Department contractors or
                subcontractors.

                When interviewed regarding recouping the severance funds, senior
                WSRC officials indicated that under the 2007 Plan, former
                employees would only be required to repay severance money if
                they were a “direct-hire” to WSRC or an affiliate. The officials
                also stated that the 2007 Plan did not prohibit employees from
                returning in other positions including consultants or staff
                augmentation. Therefore, WSRC officials made no effort to
                recoup severance money when the 21 employees were rehired in
                the various consultant, staff augmentation and subcontractor
                positions. We noted that the 2007 Plan and WSRC officials’
                position was inconsistent with the contract.

                Senior SRO officials indicated they were not aware of the extent to
                which former WSRC employees who participated in the 2007
                workforce restructuring were returning to the site to work for
                WSRC or its contractors. These officials further stated that WSRC
                may not have been in compliance with the terms of the
                management and operating contract with the Department by
                rehiring former WSRC employees who received severance
                payments to conduct the same type or similar type of work as they
                previously conducted. Specifically, senior SRO officials stated
                that the contract addressed the contractor’s responsibility regarding
                reduction or recoupment of severance payments if the employee
                was hired to perform the same type of work.

                Senior SRO officials further stated that the 2007 Plan was intended
                to assist in reducing the “footprint” at the Site. The officials also
                stated that they considered the individuals hired in consultant, staff
                augmentation and subcontractor positions as working for the
                contractor and subsequently not reducing the footprint. The
                officials also indicated that it was not the intent of the workforce
                restructuring to reduce the number and costs of direct hire
                employees while increasing the numbers and costs associated with
                hiring personnel to fill consulting and staff augmentation positions.
                These officials stated that they were not involved in the execution
                of the 2007 workforce restructuring.

                Senior SRO officials indicated that, upon receipt of our report, they
                would assess whether the $300,000 would be considered a
                disallowed cost. Additionally, senior officials indicated that the
                2009 Plan eliminated the ambiguity in the 2007 Plan as it relates to

____________________________________________________
Page 4                                                          Details of Findings
                 reemployment. Specifically, the 2009 Plan included a one-year
                 restriction on employees returning to work for the Department,
                 Savannah River Nuclear Solutions, Washington Savannah River
                 Company, Bechtel Savannah River, Incorporated, or any other
                 contractor or subcontractor that performed work under a contract
                 with the Department. The 2009 Plan further states that if
                 employees were hired in any of the aforementioned capacities, they
                 would be required to repay a pro rata portion of all the severance
                 money they received.

RESTRICTED       In addition to the 21 rehired employees, we identified
EMPLOYEES        16 restricted position employees who were allowed to participate
PAID SEVERANCE   in the workforce restructuring and received approximately
                 $780,000 in severance payments. These employees were allowed
                 to participate in the program despite the Site’s established need for
                 retaining critical employees in engineering positions.

                 Specifically, the “M&O [Management and Operating] Engineering
                 Assessment and Improvements Report,” (March 28, 2007)
                 highlighted serious organizational concerns surrounding the
                 contractor’s engineering program. The Assessment Report
                 indicated that the engineering attrition had reduced the relative
                 capability to support mission needs, and that hiring, training and
                 development programs had not kept up with the engineering
                 attrition. In responding to the Assessment Report, WSRC
                 acknowledged these concerns and asserted recruitment, retention
                 and training programs were being implemented to address the
                 problems and build engineering capability. Yet, within 4 months
                 of issuing this Assessment Report, WSRC allowed 10 engineers to
                 participate in the 2007 workforce restructuring. These 10
                 engineers were a part of the 16 restricted employee positions. The
                 remaining six restricted employees were in the science fields.

                 Our review of the 2007 Plan revealed that elements of the Plan
                 were inconsistent regarding exempting critical skills, functions
                 and/or individuals from the workforce restructuring. In general,
                 the 2007 Plan indicated that there was a need to retain the highly
                 skilled workers (specifically engineers and scientists) because their
                 skills were critical to nuclear material stabilization. It further
                 indicated that the restrictions, in part, were based on WSRC’s
                 continuing demand for technical and scientific talent and their
                 ability to retain these individuals in a competitive market. In
                 addition, the 2007 Plan stated that it was crucial to retain
                 experienced personnel and it would be “counter-productive to
                 make these segments of the employee population eligible” for the
                 workforce restructuring. Yet, the 2007 Plan included provisions

____________________________________________________
Page 5                                                           Details of Findings
                  that ultimately allowed the highest grade level employees in these
                  critical mission fields to participate in the 2007 workforce
                  restructuring, but restricted mid-level employees from
                  participating. When interviewed by the OIG about the 16
                  restricted employees, a senior WSRC official stated that the
                  prohibitions applied to certain grade levels within critical
                  positions. Therefore, only persons occupying the specified grade
                  levels were restricted from participating in the workforce
                  restructuring. The official maintained that the 16 employees
                  identified during our inspection were allowed to participate
                  because these employees were not in the restricted grade levels and
                  were, therefore, entitled to severance payments. Although the
                  engineers were not in the restricted grade levels, they were,
                  however, in the highest grade levels and therefore the most
                  experienced. Paying these senior engineers severance appeared to
                  be counterproductive to WSRC’s efforts to recruit and train
                  employees in this critical category. In addition, WSRC would
                  have been required to subsequently recruit, train or pay retention
                  bonuses to the same category of employees (engineers) to ensure
                  mission accomplishment.

                  In our discussions with senior Department officials, they stated that
                  they were unaware that any employees in restricted positions
                  participated in the 2007 workforce restructuring. They agreed that
                  this issue warranted further review, and if determined that
                  employees in critical positions received $780,000 in severance pay,
                  this payment could possibly be viewed as disallowed cost.

RECOMMENDATIONS   We recommend the Acting Manager at the Savannah River
                  Operations Office:

                     1. Conduct a review to determine the full extent of consulting,
                        subcontract and staff augmentation positions occupied by
                        WSRC employees who left during the FY 2007 workforce
                        restructuring and determine if severance money of
                        $300,000 paid to these employees should be deemed a
                        disallowed cost.

                     2. Conduct a review of the circumstances under which the
                        employees in critical positions were approved to participate
                        in the FY 2007 workforce restructuring and determine if
                        severance money of $780,000 paid to these employees
                        should be deemed a disallowed cost.




Page 6                               Details of Findings and Recommendations
MANAGEMENT AND   In comments on a draft of this report, Savannah River Operations
INSPECTOR        Office officials concurred with the report recommendations. SRO
COMMENTS         management identified corrective actions that will be taken to
                 address our recommendations. These officials also suggested that
                 the OIG delay issuance of the report in order to include the
                 completed corrective actions with the exact determination of
                 unallowable costs and any subsequent off set costs against the
                 contractor.

                 Management’s comments are included in their entirety at
                 Appendix C.

                 We consider SRO’s comments responsive to our report
                 recommendations. The OIG advised SRO management that we
                 will not delay issuance of the final report but we will monitor the
                 corrective actions in the Departmental Audit Tracking System until
                 they are deemed complete.




____________________________________________________
Page 7                                                                 Comments
Appendix A

SCOPE AND       As part of this inspection, we interviewed Federal and contractor
METHODOLOGY     officials and reviewed Federal laws governing workforce
                restructuring and employee benefits. The inspection fieldwork was
                conducted from April 2009 through March 2010.

                To accomplish the inspection objective, we reviewed:

                       Applicable Federal and Departmental policies and
                       regulations related to workforce restructuring and
                       severance payments;

                       Contract procedures pertaining to workforce restructuring
                       and severance payments;

                       Prior OIG and Government Accountability Office reports
                       on workforce restructuring and severance payments; and,

                       The FY 2007 WSRC workforce restructuring participants
                       list.

                This inspection was conducted in accordance with the Council of
                the Inspectors General on Integrity and Efficiency’s “Quality
                Standards for Inspections” issued by the President’s Council on
                Integrity and Efficiency.




____________________________________________________
Page 8                                                Scope and Methodology
Appendix B

PRIOR REPORTS   The following are prior Department of Energy Office of Inspector
                General reports:

                      Letter Report on “Contractor Severance Plans at the
                      Department of Energy,” (OAS-L-09-04, February 2009).
                      The audit was conducted to determine whether the
                      Department had a consistent approach to reimbursing
                      contractor employee involuntary separation severance
                      benefit costs. The audit concluded that based on an
                      evaluation of 23 contractor plans, that the Department did
                      not have a consistent approach to workforce restructuring to
                      ensure reasonable and equitable treatment of separated
                      employees.

                      Audit Report on “Voluntary Separation Program at the
                      Idaho Cleanup Project,” (DOE/IG-0765, May 2007). The
                      audit was conducted to determine whether the cost and
                      benefits associated with Idaho National Laboratory’s
                      voluntary separation program were consistent with similar
                      efforts conducted at other Department facilities and whether
                      the project retained the necessary skill mix to accomplish
                      the mission objectives. The audit concluded that the
                      program was exceptionally costly and, in certain respects,
                      inefficient. Specifically, the Idaho program had:
                      1) significantly higher incentives than comparable
                      Department programs; 2) costly incentives did not have
                      analytical support to justify the additional benefits paid; and,
                      3) critical skills were not retained to accomplish the mission.

                We did not identify any reports issued by the Government
                Accountability Office within the past five years that had similar
                findings.




____________________________________________________
Page 9                                                                Prior Reports
Appendix C




Page 10      Management Comments
Appendix C (continued)




Page 11                  Management Comments
Appendix C (continued)




Page 12                  Management Comments
                                                          IG Report No. INS-O-10-02

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers’
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s
   overall message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
